   Office of Inspector General




    INSPECTOR GENERAL REVIEW OF
FISCAL YEAR 2011 DRUG CONTROL FUNDS
AND PERFORMANCE SUMMARY REPORTING
    National Highway Traffic Safety Administration

             Report Number: FI-2012-049
            Date Issued: January 31, 2012
U.S. Department of                                             Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation

January 31, 2012

Mr. Jon E. Rice
Associate Director for Performance and Budget
Office of National Drug Control Policy
Washington, DC 20503

Dear Mr. Rice:

This report presents the results of our independent review of the U.S. Department
of Transportation, National Highway Traffic Safety Administration’s (NHTSA)
fiscal year 2011 Drug Control Obligation Summary and Performance Summary
reports to the Office of National Drug Control Policy (ONDCP). Both reports are
dated December 8, 2011. The reports and our review are required by 21 U.S.C.
§1704 (d).

The objective of our review is to provide assurance that no information came to
our attention that would reverse management’s assertions that the reports complied
with ONDCP Circular, Drug Control Accounting, requirements, dated May 1,
2007, in all material respects. This review was conducted in accordance with
generally accepted Government auditing standards for attestation engagements.
A review is substantially more limited in scope than an examination, which
expresses an opinion on the accuracy of NHTSA’s Drug Control Obligation
Summary and Performance Summary reports to ONDCP. As this was a review, we
do not express such an opinion.

Drug Control Obligations Summary
We performed review procedures on the accompanying report (Enclosure 1),
NHTSA’s fiscal year 2011 Drug Control Obligation Summary based upon criteria
specified in the ONDCP Circular. In general, our work was limited to inquiries
and analytical procedures appropriate for an attestation review. Specifically, we
tested selected procedures described in the Internal Control Questionnaire for
Accounting to ensure drug control funds are properly identified in the accounting
system. We traced obligations totaling approximately $2.7 million identified in the
report to the Department’s accounting system. We also verified that five major
drug control obligations in the accounting system, totaling about $2.4 million,
were supported by contracts.


Report Number FI-2012-049
                                                                                  2


During our review, no information came to our attention that the accompanying
NHTSA fiscal year 2011 Drug Control Obligation Summary to ONDCP was not
presented in conformity with the ONDCP Circular. Since NHTSA is reporting
approximately $2.7 million in drug control obligations, which is below the
$50 million threshold for full reporting required by the ONDCP Circular, we attest
that full compliance with this Circular would constitute an unreasonable reporting
burden.

Performance Reporting Summary and Assertions
We performed review procedures on the accompanying report (Enclosure 2),
NHTSA’s fiscal year 2011 Performance Summary Report, and management’s
assertions. NHTSA’s fiscal year 2011 performance target was to collect data from
at least 1,250 drivers involved in vehicle crashes for the Case Control Study of the
Crash Risk of Drug-Impaired Drivers. NHTSA reported that this performance
target was achieved. NHTSA’s database indicated that they completed data
collection for the entire study and obtained data from more than 3,000 crash-
involved drivers by the end of fiscal year 2011.

In general, our review processes were limited to inquiries and analytical
procedures appropriate for an attestation review based upon the criteria specified
in the ONDCP Circular. Specifically, we reviewed the procedures described in the
Internal Control Questionnaire for Performance Reporting, interviewed NHTSA
personnel responsible for ensuring data reliability and integrity, examined hard
copy data collection files, and selectively traced data from the files into NHTSA’s
database used for compilation and analysis. In addition, we reviewed
management’s assertions and the contract supporting the fiscal year 2011
performance measures. During our review, no information came to our attention
that the accompanying NHTSA Fiscal Year 2011 Performance Summary Report
was not presented in conformity with the ONDCP Circular.

Sincerely,



Louis C. King
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure(s)

cc: Senior Associate Administrator for Policy and Operations, NHTSA




Report Number FI-2012-049
